No.

In The Supreme Court of the United States
UMB BANK, N.A. AND COLORADO BONDSHARES – A TAX-EXEMPT FUND,

Applicants,

v.
LANDMARK TOWERS ASSOCIATION, INC., a Colorado nonprofit corporation, by Miller Frishman
Group, LLC as Receiver for 7677 East Berry Avenue Associates, L.P., its Declarant,

Respondent.

APPLICATION TO THE HONORABLE SONIA SOTOMAYOR
FOR EXTENSION OF TIME TO FILE PETITION FOR WRIT OF CERTIORARI
TO THE COLORADO COURT OF APPEALS
Pursuant to Rule 13(5) of the Rules of this Court, UMB Bank, N.A., as trustee
under a Trust Indenture, and Colorado Bondshares – a Tax Exempt Fund (together
“Applicants”) respectfully request a sixty-day extension of time to file their Petition for
Writ of Certiorari. This request, if granted, would make the Petition due on August 23,
2019. Applicants will be asking this Court to review a decision by the Colorado Court of
Appeals, the highest court in Colorado in which a decision could be had under 28 U.S.C.
§ 1257(a). The Colorado Supreme Court denied Applicants’ Petition for Certiorari on
March 25, 2019, meaning that the date for filing the Petition for Certiorari is currently
due on June 24, 2019. This application is being filed more than ten days before the
current due date for filing the Petition.
A copy of the Colorado Court of Appeals’ Opinion, captioned Landmark Towers

Association, Inc., a Colorado non-profit corporation, by EWG-GV LLC, as receiver for

1

7677 East Berry Avenue Associations, LP v. UMB Bank, N.A.; Colorado Bondshares, a
tax exempt fund; and Marin Metropolitan District, a Colorado special district (2018 COA
100), is attached hereto as Exhibit 1. This Court has jurisdiction under 28 U.S.C. §
1257(a). Furthermore, the Colorado Court of Appeals’ “judgment is plainly final on the
federal issue” under the Due Process Clause, which is “not subject to further review in
the state courts.” Cox Broad. Corp. v. Cohn, 420 U.S. 469, 485 (1975).
This request is made for the following reasons:
1.

This case presents significant and important questions of federal law,

namely the application of the Due Process Clause. By way of background, after the
Colorado Supreme Court reversed an earlier decision in this litigation in an opinion
captioned UMB Bank, N.A. v. Landmark Towers Association, 408 P.3d 836 (Colo. 2017),
the Colorado Supreme Court directed the Colorado Court of Appeals to decide issues that
were not previously addressed on appeal, including arguments by Respondent Landmark
Towers Association, Inc.’s (“Respondent”) that the Marin Metropolitan District, a
Colorado special district violated the federal due process rights of individual members
(“Landmark Property Owners”) of Respondent. The Respondent is a luxury homeowners’
association with members who were required to pay ad valorem property taxes necessary
to pay down certain Bonds purchased by Colorado Bondshares and administered by UMB,
in its capacity as trustee for the Bonds. On remand in the decision subject to this Petition
for Writ of Certiorari, the Colorado Court of Appeals held that the District violated the
Landmark Property Owners’ due process rights in two ways. First, the court held that
District organizers violated the Landmark Property Owners due process rights’ by
including them in the District where they received no “special benefit” from the taxes
imposed under this Court’s decision in Myles Salt Co. v Board of Commissioners of the

2

Iberia & St. Mary Drainage Dist., 239 U.S. 478 (1916) (Opinion, ¶¶ 24-28). Second, the
court held that the due process rights of the Landmark Property Owners were violated
when they paid a tax from which they received no special benefit, with the tax being
construed as a “special assessment.” As such, the Colorado Court of Appeals upheld the
trial court’s injunction prohibiting the District from levying ad valorem property taxes
necessary to pay down the Bonds. To date, the District owes Colorado Bondshares $17
million in unpaid Bonds, plus continually accruing interest, with no chance of repayment
according to the Courts below.
2.

This case raises the important question of whether the Due Process Clause

requires an ad valorem property tax to confer a “special benefit,” as some courts have
mistakenly applied this Court’s century-old decision in Myles Salt. By way of contrast,
numerous cases have cited to Myles Salt as an example of a special assessment case, not
a tax case. See, e.g., Morton Salt Co. v. City of S. Hutchinson, 177 F.2d 889, 892 (10th Cir.
1949). This Court itself has held that taxes need not confer any benefit under the Due
Process Clause. See St. Louis & S.W. Ry. Co. v. Nattin, 277 U.S. 157, 159 (1928).
Moreover, there is no “taking” of private property under the Due Process Clause unless
plaintiff is a property owner at the time of inclusion in the District. Here, the Landmark
Property Owners did not become property owners within the District for approximately
two years after formation of the District. As such, lower courts are in need of clarification
about how Myles Salt applies to ad valorem property taxes and how the Due Process
Clause applies differently to taxes and special assessments. A state taxing district
imposing an ad valorem property tax for “local improvements” should not convert the
underlying tax into a special assessment for federal constitutional purposes, as held by
the Colorado Court of Appeals below. See Memphis v. Charleston Ry. Co. v. Pace., 282

3

U.S. 241, 245-46 (1931). This is especially so where the legislative body that approved the
District – the City of Greenwood Village – approved the imposition of an ad valorem
property tax, not a special assessment, to finance public improvements within the
District. See Carpenter v. Shaw, 280 U.S. 363, 367 (1930).
3.

The Applicants and the Respondent are currently engaged in settlement

negotiations, which would make the filing of any Petition moot. The District has limited
funds available to satisfy a monetary judgment and the Applicants and Respondent are
currently negotiating over a potential settlement. In that regard, on May 14, 2019,
Respondent sent a demand letter to Applicants’ counsel, and Applicants’ counsel is in the
process of preparing a formal response. If the Parties are to reach a settlement that is
satisfactory to Applicants, this could render the need to file a Petition with this Court
moot.
4.

In addition, Applicants’ counsel of record, Michael Francisco, was retained

on June 12, 2019 and needs additional time to work with the Applicants and their counsel
before the Colorado courts, Neil L. Arney, Esq., who was only recently admitted to the
U.S. Supreme Court.
5.

Furthermore, this litigation has been ongoing since June 1, 2011. Given

the length of time that this matter has been litigated, the complex legal and factual issues
involved, the fact that there were two trials, three decisions by the Colorado Court of
Appeals, and one decision by the Colorado Supreme Court, the record of the underlying
proceedings is voluminous and still in the process of being compiled. This litigation has
been long pending and no party will be prejudiced by the potential delay associated with
the extension of time sought within with to file a Petition of Certiorari.

4

For these reasons, Applicants UMB Bank and Colorado Bondshares respectfully
request an extension of time to and including August 23, 2019 to file a Petition for Writ
of Certiorari.
Respectfully submitted,
Michael Francisco

Counsel of Record

Statecraft PLLC
620 N. Tejon St., Suite 101
Colorado Springs, CO 80903
(719) 822-2809

Counsel for UMB Bank and Colorado
Bondshares
June 13, 2019

5

